No.

 

 

IN THE

Supreme Court of the Anited States

DoucG OMMEN, IN HIS CAPACITY AS
LIQUIDATOR OF COOPORTUNITY HEALTH, INC., and
DAN WATKINS, IN HIS CAPACITY AS SPECIAL
DEPUTY LIQUIDATOR OF COOPORTUNITY HEALTH, INC.,

Petitioners,
Vv.

MILLIMAN, INC., ET AL.,
Respondents.

On Petition for Writ of Certiorari
to the Supreme Court of Iowa

PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,026 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 28, 2020.

 

Wilson-Epes Printing Co., Inc.
